No. 20-1499
IN THE
Supreme Court of the United States
AMERICAN CIVIL LIBERTIES UNION,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for a Writ of Certiorari to the
Foreign Intelligence Surveillance Court of Review
SERVICE LIST
Counsel of Record for Petitioner
Theodore B. Olson
Gibson Dunn & Crutcher LLP
1050 Connecticut Ave, NW
Washington, D.C. 20036
(202) 955-8668
tolson@gibsondunn.com

Counsel of Record for Respondent
Elizabeth B. Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Ave, NW
Washington, D.C. 20530
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

